                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




      AGREED-UPON PROCEDURES OF CORPORATION
     FOR NATIONAL AND COMMUNITY SERVICE GRANTS
     AWARDED TO THE ARAB COMMUNITY CENTER FOR
           ECONOMIC AND SOCIAL SERVICES

                      OIG REPORT 08-22




                            Prepared by:

                 Mayer Hoffman McCann P.C.
              Conrad Government Services Division
              12761 Darby Brooke Court, Suite 201
                   Woodbridge, Virginia 22192




This report was issued to Corporation management on August 8, 2008. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
February 9, 2009 and complete its corrective actions by August 8, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL
                                         August 8, 2008


TO:            Kristin McSwain
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Carol Bates /s/
               Assistant Inspector General for Audit

SUBJECT:       Report 08-22, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to the Arab Community Service Center
               for Economic and Social Services (ACCESS)


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann PC (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to the Arab Community Service Center for Economic and Social Services
(ACCESS). The contract required MHM to conduct its review in accordance with generally
accepted government auditing standards.

MHM is responsible for the attached report, dated August 4, 2008, and the conclusions
expressed therein. We do not express opinions on the Schedule of Award and Claimed
Costs; questioned costs; conclusions on the effectiveness of internal controls; or compliance
with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by February 9, 2009. Notice of final action is due by August 8, 2009.

If you have questions pertaining to this report, please call Stuart Axenfeld at (202) 606-9360
or Jim Elmore at (202) 606-9354.

Attachment

cc:   Hassan Jaber, Executive Director, Arab Community Center for Economic
          and Social Services
      William Anderson, Deputy Chief Financial Officer, Financial Management
      Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial
          Management
      Sherry Blue, Audit Resolution Coordinator
      Ronald E. Rolwes, CPA, CFE, Shareholder, Mayer Hoffman McCann P.C.,
          Conrad Government Services Division



                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps    AmeriCorps   Learn and Serve America
  AGREED-UPON PROCEDURES OF CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
  GRANTS AWARDED TO ARAB COMMUNITY CENTER FOR ECONOMIC AND SOCIAL SERVICES

                                  Table of Contents

                                                                            Page

Executive Summary                                                            1

Independent Accountants’ Report on Applying Agreed-Upon Procedures           4

   Results – Costs Claimed                                                   4

   Schedule of Award and Claimed Costs                                       5

   Notes to Schedule of Award and Claimed Costs                              7

   Results – Compliance and Internal Control                                 8

Appendix A – Arab Community Center for Economic and Social Services’
             Response to Draft Report
Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                      EXECUTIVE SUMMARY




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the Arab Community Center for Economic and Social Services (ACCESS).

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$3,708, matching costs of $257,672, education awards of $56,700, and an accrued interest
award (interest forbearance) of $541. A questioned cost is an alleged violation of provision
of law, regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; or a finding that, at the time of testing, such cost is not
supported by adequate documentation. The detailed cost results of our agreed-upon
procedures are presented in the Schedule of Award and Claimed Costs.

ACCESS claimed total Federal costs of $1,030,676 under grant No. 05NDHMI003 from
October 1, 2005, through September 30, 2007. As a result of testing a judgmentally
selected sample of transactions, we questioned costs claimed, as shown in the following
table.

                                                                                              Accrued
                                              Federal           Grant       Education         Interest
    Description of Questioned Costs            Share            Match        Award             Award



  Inadequate Controls Over Cost
                                           $      445       $   257,096 $               - $              -
  Reporting
  Living Allowances Paid Not In
  Accordance With AmeriCorps                    2,051               362                 -                -
  Provisions

  Missing Member Timesheets                     1,212               214                 -                -
  Service Hours Recorded in Wrong
                                                        -               -      56,700              541
  Program Year
                                  Total   $     3,708       $   257,672 $      56,700 $            541

AmeriCorps members who successfully complete terms of service are eligible for education
awards and accrued interest awards funded by the National Service Trust. These award
amounts are not funded by Corporation grants and thus are not costs claimed by ACCESS.
As part of our agreed-upon procedures, however, we determined the effect of audit findings
on eligibility for education and accrued interest awards. Using the same criteria described
above, we questioned education awards of $56,700 and an accrued interest award of $541
due to non-compliance with program requirements.

                                                 1
Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

      Lack of controls or controls not implemented over reporting and recording of
       Federal–share and match costs;

      Lack of adequate procedures to ensure program compliance, including serving hours
       before signing member contracts and instances of paying living allowances after the
       member completed service;

      Late submission of some members’ forms and missing timesheets for one member in
       the sample;

      Lack of adequate procedures to ensure member training hours were recorded on
       member timesheets and reported in the correct program year; and

      Lack of the financial management systems to enable ACCESS to compare actual
       costs to budgeted costs by cost category and to distinguish costs attributable to grant
       No. 05NDHMI003 from its prior grant; and ACCESS did not report member support
       match.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct Grantees,
such as ACCESS, and other entities to assist in the creation of full-time and part-time
national and community service programs.

ACCESS is located in Dearborn, Michigan. It operates as a National Direct Grantee using
grant funds awarded by the Corporation. ACCESS is a nonprofit, voluntary human service
agency exempt from Federal income taxes under section 501 (C) (3) of the Internal
Revenue Service Code. It has been subject to the Single Audit Act and received unqualified
opinions on its financial statements and the audit of its Major Federal Awards.

ACCESS, networked with 13 other independent community-based organizations,
collaboratively formed the Arab-American Resource Corps (ARC) to carry out the
AmeriCorps program. ACCESS is the lead organization and each network organization is
considered a sub-site. Its main mission is to provide social service delivery and referral,
youth development, and cultural outreach.

All fiscal functions are performed in house at ACCESS, including preparing Financial Status
Reports (FSRs), issuing living allowance payments to the AmeriCorps members, and
maintaining adequate accounting records for Federal and match funds. ACCESS manages
and assumes all financial responsibilities. Sub-sites have no financial responsibilities.

                                              2
ACCESS performed annual onsite visits to each sub-site. The visits were either formal or
informal. Formal visits included a review of program requirements, documentation,
communication, match requirements, and member files. Informal visits involved attending
workshops and conferences and touring the sub-site facilities.

ACCESS received grant funds of $1,996,440 under grant No. 05NDHMI003 and claimed
Federal costs of $1,030,676 during the period we tested.

We compared the inception-to-date drawdown amounts with the amounts reported in the
last FSR and determined that the drawdowns were reasonable. We have also determined
that no administrative costs were claimed under grant No. 05NDHMI003.

Agreed-Upon-Procedures Scope

We performed our agreed-upon procedures during the period March 25 through May 16,
2008.     The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed between October 1, 2005, and September
30, 2007, under grant No. 05NDHMI003, with an award period of September 3, 2005 to
January 11, 2009. We also performed tests to determine compliance with grant terms and
provisions.

The procedures performed, based on the OIG’s agreed-upon-procedures program dated
January 2008, have been included in the Independent Accountants’ Report on Applying
Agreed-Upon Procedures section of this report.

Exit Conference

The contents of this report were discussed with the Corporation and ACCESS at an exit
conference held in Dearborn, Michigan, on June 13, 2008. In addition, we provided a draft
of this report to ACCESS and to the Corporation for comment on June 25, 2008. ACCESS
disagreed with some findings and agreed with others; its response to the findings in the draft
report are included in Appendix A and summarized in each finding. The Corporation did not
respond to the individual findings and recommendations. Its response is in Appendix B.




                                              3
               Conrad Government Services Division




Inspector General
Corporation for National and Community Service


                              INDEPENDENT ACCOUNTANTS’ REPORT ON
                               APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below for costs claimed between October 1,
2005, and September 30, 2007. The procedures were agreed to by the OIG solely to assist
it in grant-cost and compliance testing of Corporation-funded Federal assistance provided to
ACCESS for grant No. 05NDHMI003, with an award period of September 30, 2005, to
January 11, 2009.        This agreed-upon procedures engagement was performed in
accordance with standards established by the American Institute of Certified Public
Accountants and generally accepted government auditing standards. The sufficiency of
these procedures is solely the responsibility of the OIG. Consequently, we make no
representation regarding the sufficiency of the procedures described below, either for the
purpose for which this report has been requested or any other purpose.

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included obtaining an understanding of ACCESS and its
sub-site monitoring process; reconciling Federal and match costs claimed to the accounting
system; reviewing member files to verify that the records supported member eligibility to
serve and allowability of living allowances and education awards; testing compliance with
selected grant provisions and award terms and conditions; and testing claimed grant costs
and match costs of ACCESS to ensure: (i) proper recording of grant costs; (ii) that the
required match was met; and (iii) costs were allowable and supported in accordance with
applicable regulations, OMB circulars, grant provisions, and award terms and conditions.

                                    Results – Costs Claimed

The testing results of costs are summarized in the Schedule of Award and Claimed Costs.
The schedule also identifies instances of questioned education awards and an accrued
interest award. These awards were not funded by the Corporation grant, and accordingly
are not included in claimed costs. As part of our agreed-upon procedures, however, we
determined the effect of member program hours and eligibility exceptions on these awards.




       2301 Dupont Drive, Suite 200  Irvine, California 92612  949-474-2020 ph  949-263-5520 fx
  12761 Darby Brooke Court, Suite 201  Woodbridge, Virginia 22192  703-491-9830 ph  703-491-9833 fx
                                                   4
                   SCHEDULE OF AWARD AND CLAIMED COSTS

                                      ACCESS

                    October 1, 2005 through September 30, 2007


                                                                             Reference

Approved Budget (Federal Funds)
   05NDHMI003                                                  $ 1,996,440     Note 1

Claimed Federal Costs
   05NDHMI003                                                  $ 1,030,676     Note 2

Questioned Federal Costs:
  Unsupported costs                               $     445                    Note 3
  Living allowances paid to non-members                 389                    Note 4
  Extra living allowance installments                 1,662                    Note 5
  Missing timesheets (unsupported)                    1,212                    Note 6
    Total Questioned Federal Costs:                            $     3,708

Questioned Match Costs:
  Overstated match costs                          $ 204,822                    Note 7
  Unsupported costs                                     761                    Note 3
  Inadequate cost allocation                         51,513                    Note 8
  Living allowance paid to non-members                   69                    Note 4
  Extra living allowance installments                   293                    Note 5
  Missing timesheets (unsupported)                      214                    Note 6
    Total Questioned Match Costs:                              $   257,672

Questioned Education Award:
  Hours recorded in wrong program year                         $    56,700     Note 9

Questioned Accrued Interest Award:
  Hours recorded in wrong program year                         $       541     Note 9
.

Notes

1. The amount shown above as Approved Budget represents the total funding to ACCESS
   according to the grant agreement.

2. Claimed costs are ACCESS’s reported Federal expenditures for the period October 1,
   2005, through September 30, 2007.




                                          5
                     SCHEDULE OF AWARD AND CLAIMED COSTS
                                  (CONTINUED)

                                         ACCESS

                      October 1, 2005 through September 31, 2007


3. ACCESS claimed $445 of Federal share and $761 of match which were unsupported
   (see Finding 1).

4. Four applicants began to perform service hours and received living allowances prior to
   becoming a member. Living allowance and related FICA in question are $389 Federal
   and $69 match (see Finding 2).

5. Four members received extra living allowance installments after the conclusion of their
   terms of service. Total living allowances and related FICA in question are $1,662
   Federal and $293 match (see Finding 2).

6. One member did not have timesheets to support reported service and received a living
   allowance for the same period. Living allowance and related FICA in question are
   $1,212 Federal and $214 match (see Finding 3).

7. Match cost of $204,822 was overstated due to a clerical error (see Finding 1).

8. Match costs allocated to the grant of $51,513 were based on an improper allocation
   methodology (see Finding 1).

9. Eighteen ’05-06 members attended the ’06-07 orientation and recorded those hours as
   program service hours in program year ‘05-06. The AmeriCorps orientation should be
   performed for each term of service because it gives the member information they need
   to best serve in the upcoming program year. Also, relating this to accounting principles,
   a cost transaction made in one grant year cannot be applied to the previous grant or
   future grant year. We questioned $56,700 of education awards and $541 of interest
   forbearance for the members who did not meet the minimum service hour requirement
   after we deducted the orientation hours (see Finding 4).




                                             6
                    Notes to Schedule of Award and Claimed Costs

Basis of Accounting

The accompanying schedule has been prepared to summarize the results of our agreed-
upon procedures performed which comply with provisions of the grant agreements between
the Corporation and ACCESS. The information presented in the schedule has been
prepared from reports submitted by ACCESS to the Corporation and accounting records of
ACCESS. The basis of accounting used in the preparation of these reports differs from
accounting principles generally accepted in the United States of America.

Equipment

No equipment was purchased and claimed under Federal or match share of costs for the
period within our review scope.

Inventory

Minor materials and supplies were charged to expense during the period of purchase.




                                            7
                           Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, or OMB requirements, as shown below:

          Lack of controls or controls not implemented over reporting and recording of
           Federal–share and match costs;

          Lack of adequate procedures to ensure program compliance, including serving hours
           before signing member contracts and instances of paying living allowances after the
           member completed service;

          Late submission of some members’ forms and missing timesheets for one member in
           the sample;

          Lack of adequate procedures to ensure member training hours were recorded on
           member timesheets and reported in the correct program year; and

          Lack of the financial management systems to enable ACCESS to compare actual
           costs to budgeted costs by cost category and to distinguish costs attributable to grant
           No. 05NDHMI003 from its prior grant; and ACCESS did not report member support
           match.


Finding 1. Lack of controls or controls not implemented over reporting and
           recording of Federal–share and match costs.

Unsupported Costs

ACCESS overstated claimed General Operating match by $200,000 and $4,822, on its
March 31, 2006, and September 30, 2007, FSRs, respectively. ACCESS found this
overstatement when it was assembling data for the audit team. The errors were due to
clerical input. The Grantee lacked a policy requiring the finance department to review and
approve the compilation and reporting of costs claimed on its FSRs. As a result, errors were
not discovered in a timely manner and may not have been found except when preparing for
the agreed-upon procedures. However, our testing revealed that there were sufficient
match costs to meet the minimum matching requirement even after we questioned the
overstated amount. ACCESS indicated that the overstated amounts will be corrected in the
next reported FSR.

In addition, during our other direct cost testing, we found $445 of Federal share and $761 of
match that were unsupported. ACCESS indicated the supporting documentation had been
misfiled and was unable to locate it.

Criteria

The 2004 AmeriCorps General Provisions, Section B.21.a. Responsibilities under Grant
Administration, Accountability of Grantee, states that "[t]he Grantee has full fiscal and
programmatic responsibility for managing all aspects of the grant and grant-supported
activities, subject to the oversight of the Corporation."
                                                  8
OMB Circular No. A-110, Uniform Administrative Requirements for Grants and Other
Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit
Organizations, Subpart C, Post-Award Requirements, Paragraph .21 Standards for financial
management systems, states:

       (b) Recipients' financial management systems shall provide for the following.

          (1) Accurate, current and complete disclosure of the financial results of
              each federally-sponsored project or program in accordance with the
              reporting requirements set forth in Section ___.52…

          (2) Records that identify adequately the source and application of funds
              for federally-sponsored activities. These records shall contain
              information pertaining to Federal awards, authorizations, obligations,
              unobligated balances, assets, outlays, income and interest…

          (3) Accounting records including cost accounting records that are
              supported by source documentation.

AmeriCorps General Provisions (2005), Section V.B.1., Financial Management Standards,
states:

       The grantee must maintain financial management systems that include
       standard accounting practices, sufficient internal controls, a clear audit trail
       and written cost allocation procedures, as necessary. Financial management
       systems must be capable of distinguishing expenditures attributable to this
       grant from expenditures not attributable to this grant. The systems must be
       able to identify costs by programmatic year and by budget category and to
       differentiate between direct and indirect costs or administrative costs. For
       further details about the grantee's financial management responsibilities,
       refer to OMB Circular A-102 and its implementing regulations (45 C.F.R. §
       2543) or A-110 and its implementing regulations (45 C.F.R. § 2541), as
       applicable.


Inadequate Costs Allocation Methodology

The portion of general operating match expenses, amounting to $51,513 for such items as
telephone, utilities, insurance, etc., was allocated to the AmeriCorps program using an
unreasonable base. The allocation methodology was based on an estimate of 67 percent of
the building occupancy. This is ACCESS’ estimate of AmeriCorps space usage. However,
our inspection and observation found that AmeriCorps occupied roughly one-third of the
building, not the two-thirds allocated to it. The Grantee indicated that the allocation
methodology was not based on AmeriCorps occupancy but rather National Outreach
program occupancy. We note that AmeriCorps is one of the sub-programs under the
National Outreach program.




                                              9
Criteria

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations Attachment A.,
General Principles, Section A.4., Allocable Costs, states:

           a. A cost is allocable to a particular cost objective, such as a grant, contract,
           project, service, or other activity, in accordance with the relative benefits
           received. A cost is allocable to a Federal award if it is treated consistently
           with other costs incurred for the same purpose in like circumstances and if it:
           (1) Is incurred specifically for the award.
           (2) Benefits both the award and other work and can be distributed in
           reasonable proportion to the benefits received, or
           (3) Is necessary to the overall operation of the organization, although a direct
           relationship to any particular cost objective cannot be shown.

           b. Any cost allocable to a particular award or other cost objective under these
           principles may not be shifted to other Federal awards to overcome funding
           deficiencies, or to avoid restrictions imposed by law or by the terms of the
           award.

OMB Circular No. A-122, Attachment A., General Principles, Section D, Allocation of Indirect
Costs and Determination of Indirect Cost Rates, states:

           1. General.

           a. Where a non-profit organization has only one major function, or where
           all its major functions benefit from its indirect costs to approximately the
           same degree, the allocation of indirect costs and the computation of an
           indirect cost rate may be accomplished through simplified allocation
           procedures, as described in subparagraph 2.

           b. Where an organization has several major functions which benefit from
           its indirect costs in varying degrees, allocation of indirect costs may
           require the accumulation of such costs into separate cost groupings
           which then are allocated individually to benefiting functions by means of a
           base which best measures the relative degree of benefit. The indirect
           costs allocated to each function are then distributed to individual awards
           and other activities included in that function by means of an indirect cost
           rate(s).

           c. The determination of what constitutes an organization's major functions
           will depend on its purpose in being; the types of services it renders to the
           public, its clients, and its members; and the amount of effort it devotes to
           such activities as fundraising, public information and membership
           activities.




                                                  10
      d. Specific methods for allocating indirect costs and computing indirect
      cost rates along with the conditions under which each method should be
      used are described in subparagraphs 2 through 5.


             *       *       *

      3. Multiple allocation base method

             *       *       *

      c. Allocation bases. Actual conditions shall be taken into account in
      selecting the base to be used in allocating the expenses in each grouping
      to benefitting functions. The essential consideration in selecting a method
      or a base is that it is the one best suited for assigning the pool of costs to
      cost objectives in accordance with benefits derived; a traceable cause
      and effect relationship; or logic and reason, where neither the cause nor
      the effect of the relationship is determinable. When an allocation can be
      made by assignment of a cost grouping directly to the function benefited,
      the allocation shall be made in that manner. When the expenses in a cost
      grouping are more general in nature, the allocation shall be made through
      the use of a selected base which produces results that are equitable to
      both the Federal Government and the organization. The distribution shall
      be made in accordance with the bases described herein unless it can be
      demonstrated that the use of a different base would result in a more
      equitable allocation of the costs, or that a more readily available base
      would not increase the costs charged to sponsored awards. The results of
      special cost studies (such as an engineering utility study) shall not be
      used to determine and allocate the indirect costs to sponsored awards.


Recommendations

We recommend that the Corporation:

   1a. Resolve the questioned costs and recoup any disallowed costs; and

   1b. Ensure that ACCESS trains it personnel and establishes controls that specifically
       address the errors and weaknesses identified above. This effort should include
       developing a record-keeping system so that grant documentation is retained and
       readily accessible; establishing an equitable allocation methodology to assign
       facility costs to each cost objective; and implementing procedures requiring
       appropriate personnel to review FSRs before they are submitted. The reviews
       should include tracing reported amounts on the FSRs to accounting records.




                                             11
ACCESS’s Response

ACCESS indicated that it has developed written polices and procedures to review FSRs but
also indicated that its fiscal department did review and approve the FSRs. In addition,
ACCESS advised that the over-reported match was corrected on the March 30, 2008, FSR,
and it had acquired new accounting software that is able to break out match costs in a
general ledger separate from Federal-share costs. ACCESS also stated that it had
developed a new allocation method based on percentage of AmeriCorps staff time and the
resulting calculations would be reflected on the next FSR.


Auditor’s Comment

ACCESS’s proposed actions should correct the conditions noted. The Corporation should
follow up with ACCESS to determine whether the proposed actions were implemented and
effective. In light of ACCESS’s disclosure that its fiscal department had reviewed and
approved the erroneous FSRs, the Corporation should examine the new written policies to
determine if the new procedures would prevent a recurrence of the condition. The
Corporation should also review the March 30, 2008, FSR and its supporting documentation
to ensure match costs were correctly reported.


Finding 2.        Lack of adequate procedures to ensure program compliance, including
                  serving hours before signing member contracts and instances of
                  paying living allowances after the member completed service.

Pre-Contract Service Hours

Member file testing found 4 out of 45 members in our sample recorded service hours while
the individuals were applicants without a signed contract. The Grantee indicated that these
members forgot to sign and submit the contract during the annual orientation. One of the
four individuals’ living allowance was questioned because the individual was a non-member
for an entire pay period. The questioned living allowance and the related Federal Insurance
Contribution Act tax (FICA) are $389 Federal and $69 match. The other three individuals
became members in the middle of the first pay period and therefore, their living allowances
were not questioned. We did not question education awards for these members because
each member had sufficient hours to earn an award after eliminating non-member hours.

Criteria

The 2005 and 2006 AmeriCorps Special Provisions, Section IV.C.1. Member Enrollment,
Member Enrollment Procedures, states:

           Member recruitment, selection and enrollment requirements are in the
           Corporation’s regulations at 45 C.F.R. Part 2522. In addition, the following
           apply:

           a. An individual is enrolled as an AmeriCorps member when all of the
              following have occurred:


                                               12
                  i. He or she has signed a member contract;
                  ii. The program has verified the individual's eligibility to serve;
                  iii. The individual has begun a term of service; and
                  iv. The program has approved the member enrollment form in WBRS.


Members Received Living Allowance Installments After Completing Terms of Service

Our tests of member living allowances in program year ’06-07 found that 4 of 45 members’
received a living allowance payment after the conclusion of their service. ACCESS
continued to pay the members after they concluded the terms of service due to delays in
completing all paperwork. ACCESS did not have a system in place to check that member
living allowances should stop when service ended. Total living allowances and the related
FICA questioned for these 4 members are $1,662 Federal and $293 match.

Criteria

According to the 2005 AmeriCorps Special Provisions, Section IV.I.1., Living Allowance
Distribution states:

           Living allowance is not a wage. Programs must not pay a living allowance on
           an hourly basis. Programs should pay the living allowance in regular
           increments, such as weekly or bi-weekly, paying an increased increment only
           on the basis of increased living expenses such as food, housing, or
           transportation. Payments should not fluctuate based on the number of hours
           served in a particular time period, and must cease when a member concludes
           a term of service.

Recommendations

We recommend that the Corporation:

    2a. Disallow and recoup the questioned living allowance costs and;

    2b. Verify that ACCESS develops controls to ensure that member contracts are signed
        before members begin service; and

    2c. Verify that ACCESS develops more effective policies and procedures to ensure
        living allowance payments conform to AmeriCorps requirements, including
        procedures to review and monitor living allowances so that payments are stopped
        at the conclusion of the member’s term of service.




                                               13
ACCESS’s Response

ACCESS indicated that it had procedures and controls in place to ensure a member’s
contract is signed before the member begins service. ACCESS believed the condition was
due to the members who left orientation without signing the contract. ACCESS also
indicated that it had implemented changes to its procedures to ensure that members’ living
allowance installments are reviewed.

Auditor’s Comment

Although ACCESS indicated that it had procedures and controls in place to ensure
members sign contracts before AmeriCorps service begins, ACCESS should develop more
effective procedures and controls to prevent a member from beginning service without a
signed contract. The Corporation should follow up with ACCESS to determine whether the
proposed actions were implemented and effective. The Corporation should consider the
actions taken but disallow and recoup the questioned costs.



Finding 3.       Late submission of some members’ forms and missing timesheets for
                 one member in the sample.

Late Submission

Our testing found that the Grantee submitted required forms late, as shown below:

          2 of 90 Enrollment Forms.
          7 of 27 Change-of-Status Forms.
          17 of 87 Member Exit Forms.

ACCESS was uncertain of the cause for this condition because the responsible personnel
are no longer in its employ. It indicated that the late form submissions might be due to lack
of oversight.

Criteria

The 2004 AmeriCorps Special Provisions, Section B.16. Reporting Requirements, states:

           b. AmeriCorps Member Related-Forms. The Grantee is required to submit
           the following documents to the National Service Trust at the Corporation on
           forms provided by the Corporation. Grantees and Sub-Grantees may use
           WBRS to submit these forms electronically. Program using WBRS must also
           maintain hard copies of the forms ... Enrollment forms must be submitted no
           later than 30 days after a member is enrolled. Member Change of Status
           Forms must be submitted no later than 30 days after a member's status is
           changed ... Member Exit/End-of-Term-of-Service Forms must be submitted
           no later than 30 days after a member exits the program or finished his/her
           term of service.



                                               14
Missing Member Timesheets

Out of the 90 member files that we reviewed, the file for 1 member did not have timesheets
to support the service hours reported. ACCESS believed that the timesheets might have
been misplaced. Without a certified attendance record, the member might not have served
during the period and should not have received a living allowance. As a result, we
questioned the member’s living allowance and applicable FICA. The Federal share
questioned is $1,212 and the match questioned is $214. This member did not earn an
education award.

Criteria:

The 2005 AmeriCorps General Provisions, Section V.E. Retention of Records, states:

        The grantee must retain and make available all financial records, supporting
        documentation, statistical records, evaluation and program performance data,
        member information and personnel records, for 3 years from the date of the
        submission of the final Financial Status Report (SF 269A). If an audit is
        started prior to the expiration of the 3-year period, the records must be
        retained until the audit findings involving the records have been resolved and
        final action taken.


Recommendations

We recommend that the Corporation:

    3a. Disallow and recoup the questioned living allowance costs and;

    3b. Ensure that ACCESS develops more effective control procedures so that its staff
        (1) is familiar with program requirements and provisions for updating members’
        status in WBRS or other applicable systems, and (2) properly maintains grant
        documentation, including member timesheets.


ACCESS’s Response

ACCESS agreed with the finding. However, ACCESS indicated that late submission of
forms was not due to lack of oversight and will upgrade its software systems to improve
program staff’s ability to track all required member forms. ACCESS also indicated that the
missing timesheets were damaged during a flood and does not believe corrective action is
necessary, since only one member’s timesheets were missing.

Auditor’s Comment

We continue to believe that lack of adequate oversight prevented the timely detection and
correction of submitting forms late. Software may improve tracking, but oversight is
necessary for continuing effective control over the timely submission of forms.



                                             15
Although only one member’s timesheets from the sample were missing, we believe that a
more effective control procedure should be developed to prevent losing documentation due
to disaster or catastrophic events.        Therefore, ACCESS should implement the
recommended corrective actions and the Corporation should follow up with ACCESS to
ensure the recommended corrective actions are implemented.


Finding 4.    Lack of adequate procedures to ensure member training hours were
              recorded on member timesheets and reported in the correct program
              year.

Training Hours Not Recorded on Member Timesheets

Out of the 120 members, 37 members had zero training hours reported. Members did not
follow ACCESS’s policy, which required the members to track AmeriCorps hours they
performed by service categories. The members recorded training hours as service hours.
Supervisory review should have found this error. However, we were able to verify, through
other supporting documentation, such as training and orientation sign-in logs, etc., that
these members did receive training.

Criteria:

ACCESS’s Arab-American Resource Corps Policies and Procedures, Stipend and
Timesheets, states:

        In order to receive the bi-monthly stipend in a timely manner, all members are
        required to complete and approve an electronic timesheet on time. The
        member electronic timesheet fulfills three important purposes:
            1. It tracks the member’s progress toward completion of their 1,700
               hours;
            2. It tracks the member’s attendance for payroll (paychecks) purposes;
            3. It tracks the number of hours performed by each member in the
               various service categories.

The 2005 and 2006 AmeriCorps General Provisions, Section V.A., Responsibilities Under
Grant Administration, states:

        1. Accountability of Grantee. The grantee has full fiscal and programmatic
        responsibility for managing all aspects of the grant and grant-supported
        activities, subject to the oversight of the Corporation. The grantee is
        accountable to the Corporation for its operation of the AmeriCorps Program
        and the use of Corporation grant funds. The grantee must expend grant funds
        in a judicious and reasonable manner, and it must record accurately the
        service activities and outcomes achieved under the grant. Although
        grantees are encouraged to seek the advice and opinion of the Corporation
        on special problems that may arise, such advice does not diminish the
        grantee's responsibility for making sound judgments and does not mean that
        the responsibility for operating decisions has shifted to the Corporation.



                                             16
Member’s Training Hours Reported in the Wrong Program Year

Eighteen members enrolled in program year ’05-06 had attended the '06-07 orientation
toward the end of the ’05-06 program year and recorded those hours as program hours in
program year ’05-06. The AmeriCorps orientation should be performed for each term of
service because it gives the members information they need to best serve for the upcoming
program year. Also, relating this to accounting principles, a cost transaction made in one
grant year cannot be applied to the previous grant or future grant year. To receive member
training at the end of the program year would not benefit the members in the current
program year. ACCESS believed that even though it was a ’06-07 orientation, it would
provide the members training updates for the new program year and, since these members
were still active in ’05-06, the orientation would be helpful to them. The members and their
respective hours are listed below:

                       ’06-07           Total                      Questioned Questioned
   Member            Orientation      Reported     Recalculated    Education   Accrued
  Reference            Hours           Hours          Hours          Award     Interest
      A                 43.30         1,717.20      1,673.90            4,725   None
      B                 44.00         1,720.70      1,676.70            4,725   None
      C                 45.50         1,758.60      1,713.10                 -   N/A
      D                 32.00         1,732.00      1,700.00                 -   N/A
      E                 25.10         1,700.10      1,675.00            4,725   None
      F                 37.00         1,700.10      1,663.10            4,725   None
      G                 22.50         1,700.50      1,678.00            4,725   None
      H                 29.00         1,745.80      1,716.80                 -   N/A
      I                 35.50         1,703.79      1,668.29            4,725   None
      J                 31.25         1,711.50      1,680.25            4,725   None
      K                 43.50         1,706.00      1,662.50            4,725   None
      L                  8.00         1,703.90      1,695.90            4,725   None
      M                 12.00         1,722.80      1,710.80                 -   N/A
      N                 45.00         1,782.00      1,737.00                 -   N/A
      O                 43.00         1,701.05      1,658.05            4,725    541
      P                 45.00         1,702.80      1,657.80            4,725   None
      Q                 43.80         1,807.10      1,763.30                 -   N/A
      R                 41.50         1,736.00      1,694.50            4,725   None
                                                                   $ 56,700      541

Criteria

The AmeriCorps Special Provisions, Section IV.D. Training, Supervision, and Support,
states:

           3. Consistent with the approved budget, the grantee must provide members
           with the training, skills, knowledge and supervision necessary to perform the
           tasks required in their assigned project positions, including specific training in
           a particular field and background information on the community served.

           The grantee must conduct an orientation for members and comply with any
           pre-service orientation or training required by the Corporation. This
           orientation should be designed to enhance member security and sensitivity to
                                                  17
       the community. Orientation should cover member rights and responsibilities,
       including the Program's code of conduct, prohibited activities (including those
       specified in the regulations), requirements under the Drug-Free Workplace
       Act (41 U.S.C. 701 et seq.), suspension and termination from service,
       grievance procedures, sexual harassment, other non-discrimination issues,
       and other topics as necessary.

The AmeriCorps Special Provisions, Section IV.E. Terms of Service, states:

       1. Program Requirements. Each Program must, at the start of the term of
       service, establish the guidelines and definitions for the successful completion
       of the Program year, ensuring that these Program requirements meet the
       Corporation’s service hour requirements as defined below:

       a. Full-Time Members. Members must serve at least 1700 hours during a
       period of not less than nine months and not more than one year.


Member Agreement between the Grantee and the member, Section III, Terms of
Services, Section F. states:

       The member understands that to successfully complete the term of services
       (as defined by the program and consistent with regulations of the Corporation
       of National Service) and to be eligible for the education award, he/she must
       complete at least 1700 hours of service, complete at least 10 months of
       service and satisfactorily complete pre-service training and the appropriate
       education/training that relates to the member’s ability to perform service.

Recommendations

We recommend that the Corporation:

   4a. Disallow and recoup, if used, education awards and any accrued interest awards
       (interest forbearance) for members that did not meet their minimum service hours;

   4b. Ensure that ACCESS provides training to its program personnel so they are familiar
       with program requirements and provisions as to recording orientation hours in the
       appropriate program year; and

   4c. Instruct ACCESS to strengthen controls and monitoring over member timesheet
       preparation.

ACCESS’s Response

ACCESS indicated that the Arab American Resource Corps policies for timekeeping are for
the 2007 program year. In addition, ACCESS’s primary method for tracking training hours
was through quarterly progress reports. ACCESS indicated that it will continue to provide
training to members on how to report their activities correctly in its timekeeping system.


                                             18
ACCESS also indicated that it can demonstrate that all members in question did meet their
1,700 hours for each term and provided related documentation to the Corporation.
ACCESS indicated that the orientation provides training, and it tailors the training to the
skills and experiences of the members that receive the training. Members go through
leadership development training and discuss life after AmeriCorps, in addition to being
trained on a range of program-related issues, such as polices and procedures. For
members that have participated in previous ACCESS training, it creates opportunities to
become mentors while deepening their skills. ACCESS believed that annual training is an
efficient and effective method of training members.

Auditor’s Comment

Prior to ACCESS’s response, we reduced the number of members shown in the draft report
from 30 to the 18 shown above because ACCESS provided new information that showed
the other members did not attend the orientation. Related questioned costs for education
awards were also reduced from that shown in the draft report.

For members’ training hours not recorded in the timesheets, a majority of these members
were enrolled in the 2006-2007 program year. Therefore, we believed ACCESS should
follow its policies for member’s recording training on its electronic timekeeping system. In
addition, the quarterly progress reports only provide a summary of the training received
during the quarter but do not reflect the actual training hours each member received.
Without actual training hours recorded, ACCESS would not have a system to keep track of
the 20 percent maximum training hours (in aggregate) requirement per AmeriCorps
provisions.

For members whose training hours were recorded in the wrong program year, ACCESS did
not justify how the 05-06’ members, who attended the 06-07’ orientation, would benefit from
the training in the 05-06’ program year. In addition, the 06-07’ orientation was designed to
prepare the member with adequate skills and updating policies and procedures in order to
better serve in program year 06-07’. Therefore, relating this to accounting principles, a cost
transaction made in one grant year cannot be applied to the previous grant or future grant
year. Finally, a review of the 06-07’ orientation agenda did not substantiate this type of
training was provided. We also are concerned that training at the end-of-service does not
benefit the AmeriCorps Program for the same program year completed and therefore would
be unallowable.

ACCESS should implement the recommended corrective actions and the Corporation
should follow up with ACCESS to ensure the recommended corrective actions are effectively
implemented.




                                             19
Finding 5.       Lack of the financial management systems to enable ACCESS to
                 compare actual cost to budgeted cost by cost category and to
                 distinguish costs attributable to grant No. 05NDHMI003 from its prior
                 grant; and ACCESS did not report member support match

Lack of Financial Management Systems to Compare Actual versus Budget by Costs
Categories and to Distinguish Costs Attributable to the Current and the Former Grant

The grantee did not compare actual costs to budget limitations by cost category. ACCESS’
old accounting software did not have the capability to check budget against actual and
ACCESS was unaware of this program requirement.

In addition, ACCESS utilized the same departmental account to track costs for both the
former and the current AmeriCorps grant. It indicated that the same departmental account
was used because the funds were from the same funding streams. Therefore, ACCESS did
not code it differently in its accounting software. However, based on our sample of cost
transactions tested, we noted that ACCESS manually separated the costs between the
former and current AmeriCorps grants by reviewing the cost transaction details and reported
costs correctly in the FSRs.

Criteria

The 2005 AmeriCorps General Provisions, Section V.B. Financial Management Standards
states:

           General. The grantee must maintain financial management systems that
           include standard accounting practices, sufficient internal controls, a clear
           audit trail and written cost allocation procedures, as necessary. Financial
           management systems must be capable of distinguishing expenditures
           attributable to this grant from expenditures not attributable to this grant. The
           systems must be able to identify costs by programmatic year and by budget
           category and to differentiate between direct and indirect costs or
           administrative costs.

Member Support Match Was Not Reported

ACCESS did not report any cash match for member support costs, and as such, did not
meet the match requirement. The Grantee was unaware that member support match needs
to be reported in the FSRs. We reviewed ACCESS’s supporting documentation and noted
that it did provide sufficient member support match to meet the 15 percent requirement. We
did not question Federal share costs for this finding because ACCESS indicated the un-
reported member support match will be reported in the next FSR.

Criteria

45 C.F.R. § 2521.60 To what extent must my share of program costs increase over time?

           Except as provided in paragraph (b) of this section, if your program continues
           to receive funding after an initial three-year grant period, you must continue to
                                                  20
       meet the minimum requirements in §2541.45 of this part. In addition, your
       required share of program costs, including member support and operating
       costs, will incrementally increase to a 50 percent overall share by the tenth
       year and any year thereafter that you receive a grant, without a break in
       funding of five years or more. A 50 percent overall match means that you will
       be required to match $1 for every $1 you receive from the Corporation.

       (a) Minimum Organization Share: (1) Subject to the requirements of §2521.45
       of this part, and except as provided in paragraph (b) of this section, your
       overall share of program costs will increase as of the fourth consecutive year
       that you receive a grant, according to the following timetable:

       Minimum Member Support 15%
       Minimum Operating Costs 33%

       (2) A grantee must have contributed matching resources by the end of a
       grant period in an amount equal to the combined total of the minimum overall
       annual match for each year of the grant period, according to the table in
       paragraph (a)(1) of this section.


Recommendations

We recommend that the Corporation:

   5a. Instruct ACCCESS to (1) compare actual versus budget by costs categories, and
       (2) ensure that the financial management system can distinguish costs attributable
       to each grant separately;

   5b. Provide training to ACCESS personnel so that they are familiar with program
       requirements and provisions for reporting match; and

   5c. Review the March 31, 2008 FSR to determine if ACCESS reported the required
       cash match for member support, and verify that the match claimed is reasonable,
       allowable, and allocable to the grant; and ensure that member support match is
       reported in the subsequent FSRs.

ACCESS Response

ACCESS agreed to the finding and has taken corrective measures. ACCESS indicated that
it acquired and is operating new accounting software which is capable of tracking budget
versus actual costs. The new software is also capable of segregating costs by grant
number. ACCESS also indicated that member support match was reported on the March
31, 2008 FSR.

Auditor’s Comment

ACCESS’s proposed actions are noted. The Corporation should follow up with ACCESS to
determine whether the proposed actions were implemented and effective. The Corporation


                                            21
should also review the March 31, 2008, FSR and its supporting documentation to ensure
member support match was correctly reported.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, ACCESS, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Woodbridge, Virginia
August 4, 2008




                                          22
                                 APPENDIX A

Arab Community Center for Economic and Social Services’ Response to Draft Report
July 24, 2008
James B. Elmore, Audit Manager
Office of the Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525


Dear Mr. Elmore:

I am pleased to submit the Arab community Center for Economic and Social Services
(ACCESS) audit response to the Office of Inspector General. It has been a pleasure
working with you and your team during this process. Please feel free to contact us if you
need any additional information.


Sincerely,




Hassan Jaber
Executive Director
                               APPENDIX A




                  ACCESS Response to Draft Letter




July 24, 2008

Hassan Jaber, Executive Director
Finding 1. Lack of controls or controls not implemented over reporting and
recording of Federal-share and match costs.

ACCESS concurs with the audit that it lacked written policies and procedures over this
process. However, the ACCESS fiscal department did review and approve the costs
claimed on the FSR’s.

We have directly addressed this issue by developing written policies and procedures. The
policy states that a Senior Accountant will compile the information necessary to fill out
the FSR, and the Fiscal Manager will check the numbers to actual financial data from the
accounting software before the FSR is posted.

Unsupported Costs

For the March 31, 2006 and September, 30, 2007 FSR’s, there was human error when
entering the amounts of the matching dollars. These amounts were corrected on the FSR
ending 3/30/08 and the supporting documentation has been forwarded to the Corporation.
ACCESS has also invested in a new state of the art accounting software (Navision
Serenic) that has been operational for the past year. We are able to program the software
using the appropriate allocation method, in order to breakout these matching funds in
separate general ledgers earmarked as matching funds for the Corporation.

Inadequate Cost Allocation Methodology

Based on the findings of the audit, Access will change d the allocation method that was
used in the past. ACCESS will now use a more equitable allocation in its cost allocation
plan. The allocation is now based on percentage of AmeriCorps staff time instead of
square footage occupied by all staff. The calculation for the new allocation percentage
has been forwarded to the Corporation. The correction for this difference in the
allocation methods will be reflected on the next FSR.

Finding 2. Lack of adequate procedures to ensure program compliance, including
serving hours before signing member contracts and instances of paying living
allowances after the member completed service.

Pre-Contract Service Hours

ACCESS has procedures and controls in place to ensure that all members have complied
with the criteria set out in the AmeriCorps Special provisions under “Member
Enrollment Procedures.” We do concur with the finding that four members mistakenly
left the annual pre-service training without signing their contracts. ACCESS requested
and received the signed contracts by mail. The four members in question have met all
their required hours.
Members Received Living Allowance Installments After Completing Terms of Service

We concur with this finding. We have implemented changes in our procedures in order to
address this issue. ACCESS’ ARC Program Manager and Payroll Accountant will meet
quarterly to go over each member payroll to insure that we are in agreement with the
actual payroll journal and do not exceed any member pay.

Finding 3. Late submission of some members’ forms and missing timesheets for
one member in the sample.

ACCESS understands the requirements. We agree with the finding that the forms listed
were submitted late, but this was not due to lack of oversight. ACCESS will address this
issue by upgrading its software systems to improve program staff’s ability to track all
required member forms. ACCESS has already moved to an electronic timekeeping
system for all members.

Missing Member Timesheets

Only one member was missing time sheets. ACCESS determined that the timesheets
were damaged during a flood in that houses the program. We have documentation on the
flood and have provided it to the Corporation. ACCESS does not agree that there should
be corrective action.


Finding 4. Lack of adequate procedures to ensure member training hours were
recorded on member timesheets and reported in the correct program
year.

Training Hours Not Recorded on Member Timesheets

ACCESS does not agree with this finding. The Arab American Resource Corps policies
and procedures cited are for the 2007 program year, after ACCESS switched to an
electronic timekeeping system.

ACCESS does require members to report on service activities and outcomes achieved
under the grant. Training is one of many activities that we monitor. Prior to moving
towards an electronic timekeeping system, this was accomplished through information
recorded on timesheets, monthly stories and quarterly progress reports submitted by
members. The primary method access tracked training hours was through the member’s
quarterly progress reports. ACCESS agrees that there were paper timesheets that
contained incomplete information under the “training” question. Our move towards an
electronic time keeping system was an effort to improve our program monitoring systems
and simplify the reporting process for members. We will continue provide training to
members during the pre-service orientation on how to utilize the electronic system and
report their activities to program staff.
Member’s Training Hours Reported in the Wrong Program Year

ACCESS does not agree with this finding, all members were trained at the beginning of
their service and some members were trained at the end of their service as well.
ACCESS can demonstrate that all members in question did meet their 1,700 hours for
each term. ACCESS has provided the Corporation with this documentation. ACCESS
provides trainings and tailors it to the skills and experiences of the members that receive
these trainings. Members go through a leadership development training and discuss life
after AmeriCorps, in addition to being trained on a range of program related issues such
as polices and procedures. For members that have participated in previous ACCESS
trainings, it creates opportunities to become mentors while deepening their skills. We find
that holding an annual training is an efficient and effective method of training members.


Finding 5: Lack of the Financial management systems to enable ACCESS to
compare actual cost by cost category; to distinguish costs attributable to grant
no.05NDHM1003 from its prior grant; and to report match to meet the matching
requirements.

Lack Financial Management Systems to compare Actual verses Budget by Costs
Categories and Distinguish Costs Attributable to the Current and Former Grant


ACCESS agrees with this finding. ACCESS has purchased and made operational a new
state of the art accounting software. The software gives us the capability to input budgets
per cost category. As we incur expenses the system will be able to give a snapshot at any
time of actual cost to budgeted cost by cost categories. We will also be able to segregate
costs by grant numbers using the new software.

Member support match was not reported

The member support matching costs were not reported on the FSR’s. This has since been
fixed on the FSR date ending 3/30/08 and the documentation has been forwarded to the
Corporation.
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                               NATIONAL &
                               COMMUNITY
                               SERVICBu t

To:           Carol Bate ~mec r General for Audit

From:         M       t Ro    ~J ector of Grants Management

Cc:           Jerry Bridges, Chief Financial Officer
              Rocco Gaudio, Deputy CFO for Grants and FFMC
              Frank Trinity, General Counsel
              Kristin McSwain, Director of AmeriCorps
              Sherry Blue, Audit Resolution Coordinator

Date:         July 25, 2008

Sub:          Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              the Arab Community Center for Economic and Social Services



Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to the Arab Community Center for Economic and Social
Services (ACCESS). We are working with ACCESS on its corrective action plan. We
will respond with the management decision after we have reviewed the audit working
papers and the ACCESS corrective action plan.
